<html>
<title> - TRANSPORTING NUCLEAR MATERIALS: DESIGN, LOGISTICS, AND SHIPMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    TRANSPORTING NUCLEAR MATERIALS: DESIGN, LOGISTICS, AND SHIPMENT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2015

                               __________

                           Serial No. 114-82
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               _____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
98-568                            WASHINGTON : 2016                          
                    
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  
                   
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5

                               Witnesses

Christopher Kouts, Managing Partner, Kouts Counseling............     6
    Prepared statement...........................................     9
Edward R. Hamberger, President and Chief Executive Officer, 
  Association of American Railroads..............................    15
    Prepared statement...........................................    17
Kelly Horn, Co-Chairman, Midwestern Radioactive Materials 
  Transportation Committee.......................................    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................    99
Robert Quinn, Vice President, Cask and Container Technology, 
  Energysolutions; Chairman, Spent Fuel Transportation Task 
  Force, U.S. Nuclear Infrastructure Council.....................    39
    Prepared statement...........................................    41
    Answers to submitted questions...............................   102
Franklin Rusco, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................    46
    Prepared statement...........................................    48
Kevin J. Kamps, Radioactive Waste Watchdog, Beyond Nuclear.......    61
    Prepared statement...........................................    63

 
    TRANSPORTING NUCLEAR MATERIALS: DESIGN, LOGISTICS, AND SHIPMENT

                              ----------                              


                       THURSDAY, OCTOBER 1, 2015

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:54 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus, 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, Harper, Latta, Johnson, 
Bucshon, Flores, Tonko, McNerney, and Pallone (ex officio).
    Staff Present: Will Batson, Legislative Clerk; Rebecca 
Card, Staff Assistant; David McCarthy, Chief Counsel, 
Environment and Economy; Chris Sarley, Policy Coordinator, 
Environment and Economy; Greg Watson, Legislative Clerk; Andy 
Zach, Counsel, Environment and Economy; Jacqueline Cohen, 
Minority Senior Counsel; Tiffany Guarascio, Minority Deputy 
Staff Director and Chief Health Advisor; Rick Kessler, Minority 
Senior Advisor and Staff Director, Energy and Environment; 
Aledander Ratner, Minority Policy Advisor, and Timia Crisp, 
Minority AAAS Fellow.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. If I can get the door closed in the back 
there, and call this hearing to order and welcome our guests, I 
will start recognizing myself for 5 minutes for an opening 
statement.
    Good morning, and welcome to today's hearing to examine 
issues associated with the transportation of nuclear materials. 
Annually, over three million packages containing radioactive 
material are transported throughout the United States. 
Privately shipped items are safely regulated and Federally 
overseen by both the U.S. Department of Transportation and the 
Nuclear Regulatory Commission, the NRC. The NRC must approve 
any package used for shipping nuclear material before shipment. 
To secure the necessary approval, the package must be shown to 
withstand a series of accident conditions which are 
sequentially performed to determine cumulative effects on the 
package. The rigorous testing and monitoring of these items 
highlights the lack of technical issues to transport nuclear 
material.
    State authorities also play a key role in the 
transportation system by identifying highway routes and 
assuring emergency responders are adequately prepared. Regional 
organizations such as the Council of State Governments' 
midwestern office extensively communicates with the public to 
prepare communities. They also provide lessons learned from 
historical nuclear transportation activities to continually 
improve the radioactive material transportation planning 
process and public outreach. The successful track record is a 
testament to the established guidelines and system.
    The Federal Government also has a significant experience 
shipping nuclear material. For example, the Department of 
Energy ships spent nuclear fuel from Naval ships to Idaho for 
storage and transports radioactive material across the country 
for nuclear research and development activities. The DOE has 
managed thousands of safe shipments of low level radioactive 
waste for disposal in New Mexico, and even disposes of nuclear 
material at the Nevada National Security site located directly 
adjacent to Yucca Mountain.
    However, much of the material that is currently shipped is 
less hazardous and in smaller quantities than high-level 
radioactive waste, spent nuclear fuel, and defense nuclear 
waste which must be permanently disposed of. Congress directed 
DOE to appropriately plan for a transportation campaign to move 
spent nuclear fuel and high-level radioactive waste for 
permanent disposal when the Nuclear Waste Policy Act was signed 
into law in 1982. Yet 33 years later, many nuclear experts 
recognize transportation may still be the long pole in the 
tent.
    In 2006, the National Academies of Science published a 
comprehensive report including findings and recommendations to 
develop and execute a national transportation campaign for 
spent nuclear fuel disposal.
    In 2012, the Obama administration's Blue Ribbon Commission 
evaluated DOE's implementation of these recommendations and 
noted much work remains to be accomplished. While DOE has made 
limited progress, much of the planning has been undone over the 
last 6 years, and DOE now is treading water by conducting only 
generic non-site specific planning.
    The scale and necessary coordination for shipment will 
require persistent effort from Federal, state, local, and 
tribal governments, and the private entities. DOE has planned 
to transport 3,000 tons of commercial spent nuclear fuel a 
year, while the fleet of nuclear power plants continues to 
annually generate about 2,000 tons of spent nuclear fuel. A 
2008 life cycle system analysis for the Yucca Mountain project 
included a $20 billion, 70-year national transportation 
campaign.
    While Congress potentially considers amending the Nuclear 
Waste Policy Act, we must evaluate whether marginal safety 
gains from temporary consolidating used fuel justifies the 
financial cost to transport used fuel twice.
    As this committee continues to engage in the conversations 
with national stakeholders to identify a path forward for 
permanent disposal of spent nuclear fuel, I hope DOE revisits 
previous recommendations and lays a foundation for a national 
campaign.
    One constructive step is the recognition to procure a fleet 
of rail cars to ship spent fuel. In August, DOE signed a 
contract for the design of a rail car that could meet the 
Association of American Railroads' requirements for 
transporting spent fuel and high-level waste. However, after 
the prototype rail car is acquired, it still must undergo 
rigorous testing to demonstrate performance.
    DOE estimates that overall timeframe for the development of 
the entire train system is 7 to 9 years. That lead time is a 
reminder Congress and the DOE must remain attentive to 
comprehensive issues associated with used fuel management 
policy.
    Today we will hear from expert stakeholders about the 
experience we have in moving nuclear fuel, such as engaging 
with State and local stakeholders to share information, 
identify routes, and train emergency responders. We will hear 
DOE's previous activities and discuss the next steps for the 
Department to implement.
    I thank all of our witnesses for being here today, and now 
I recognize the ranking member, Mr. Tonko, for his open 
statement.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Annually, over three million packages containing 
radioactive material are transported throughout the United 
States. Privately shipped items are safely regulated and 
federally overseen by both the U.S. Department of 
Transportation and the Nuclear Regulatory Commission (NRC). The 
NRC must approve any package used for shipping nuclear material 
before shipment. To secure the necessary approval, the package 
must be shown to withstand a series of accident conditions 
which are sequentially performed to determine cumulative 
effects on the package. The rigorous testing and monitoring of 
these items highlights the lack of technical issues to 
transport nuclear material.
    State authorities also play a key role in the 
transportation system by identifying highway routes and 
assuring emergency responders are adequately prepared Regional 
organizations, such as the Council of State Governments 
Midwestern Office, extensively communicates with the public to 
prepare communities.
    They also provide ``lessons learned'' from historical 
nuclear transportation activities to continually improve the 
radioactive material transportation planning process and public 
outreach. The successful track record is a testament to the 
established guidelines and system.
    The Federal government also has significant experience 
shipping nuclear material. For example, the Department of 
Energy (DOE) ships spent nuclear fuel from naval ships to Idaho 
for storage and transports radioactive material across the 
country for nuclear research and development activities. DOE 
has managed thousands of safe shipments of low-level 
radioactive waste for disposal in New Mexico and even disposes 
of nuclear material at the Nevada National Security Site, 
located directly adjacent to the Yucca Mountain site.
    However, much of the material that is currently shipped is 
less hazardous and in smaller quantities than high-level 
radioactive waste, spent nuclear fuel, and defense nuclear 
waste which must be permanently disposed of. Congress directed 
DOE to appropriately plan for a transportation campaign to move 
spent nuclear fuel and high-level radioactive waste for 
permanent disposal when the Nuclear Waste Policy Act was signed 
into law in 1982. Yet 33 years later, many nuclear experts 
recognize transportation may still be the ``long pole in the 
tent.''
    In 2006, the National Academies of Science published a 
comprehensive report, including findings and recommendations, 
to develop and execute a national transportation campaign for 
spent nuclear fuel disposal. In 2012, the Obama 
Administration's Blue Ribbon Commission evaluated DOE's 
implementation of these recommendations and noted much work 
remains to be accomplished. While DOE had made limited 
progress, much of the planning has been undone over the last 
six years and DOE now is treading water by conducting only 
generic, nonsite specific planning.
    The scale and necessary coordination for shipment will 
require a persistent effort from Federal, State, local, and 
tribal governments and private entities. DOE had planned to 
transport 3,000 tons of commercial spent nuclear fuel a year, 
while the fleet of nuclear power plants continues to annually 
generate about 2,000 tons of spent nuclear fuel. A 2008 life 
cycle system analysis for the Yucca Mountain Project included a 
$20 billion, 70-year National Transportation Campaign.
    While Congress potentially considers amending the Nuclear 
Waste Policy Act, we must evaluate whether marginal safety 
gains from temporarily consolidating used fuel justifies the 
financial costs to transport used fuel twice. As this Committee 
continues to engage in conversations with national stakeholders 
to identify a path forward for permanent disposal of spent 
nuclear fuel, I hope DOE revisits previous recommendations and 
lays the foundation for a national campaign.
    One constructive step is the recognition to procure a fleet 
of railcars to ship spent fuel. In August, DOE signed a 
contract for the design of a railcar that could meet the 
Association of American Railroads requirements for transporting 
spent fuel and high-level waste. However, after the prototype 
railcar is acquired, it still must undergo rigorous testing to 
demonstrate performance. DOE estimates the overall timeframe 
for the development of the entire train system is seven to nine 
years. The lead time is a reminder Congress and DOE must remain 
attentive to comprehensive issues associated with used fuel 
management policy.
    Today, we will hear from expert stakeholders about the 
experience we have in moving nuclear material, such as engaging 
with state and local stakeholders to share information, 
identify routes, and train emergency responders.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and good morning. And good 
morning to our witnesses. Thank you for participating in the 
hearing this morning. It is valuable input.
    Transportation of nuclear waste certainly is a vital 
component of any long-term storage program. There has been a 
great deal of discussion about the challenges and the delays of 
construction of a long-term storage site at Yucca Mountain. But 
significant challenges remain in the planning for 
transportation of this waste, both technical and social.
    As I understand it, additional work is needed to develop 
casks that are sufficiently robust to ensure this waste will be 
transported safely from individual generation facility sites to 
the permanent storage area.
    We have transported nuclear waste. That is true. But I 
think we will hear today that some of this waste requires 
special handling over and above what is needed for the waste 
that moves today. And then there is public acceptance. This is 
probably an even bigger challenge than the technical matters at 
hand. I think the current public concern and opposition to the 
drastic increase in transportation of oil by rail offers a 
small window into this problem. And we have been transporting 
oil by rail and by pipeline for a much longer time than we have 
for spent fuel from nuclear plants.
    Many of my constituents, as well as the state and local 
governments, do not believe that we are taking adequate safety 
precautions with the transportation of oil. And they are asking 
for better, safer rail cars for this cargo that is passing 
through numerous populated areas and vital land and water 
resources. Their demands for safe transit pathways and secure 
transport containers will be even more insistent. And I believe 
they are right in these demands.
    Much of the remaining work to devise an acceptable, safe 
process for moving this waste will fall to the U.S. Department 
of Transportation. And obviously there is also an ongoing role 
for our Department of Energy as well. State and local 
governments will need to be very involved in these discussions 
as plans move forward also. And all of these tasks need to be 
done regardless of whether we decide to establish some interim 
sites or not.
    So, the message is we have a lot of work to do. Again, I 
thank the witnesses for being here this morning. I look forward 
to your testimony, and hopefully we can move forward.
    With that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    I have a statement for the record that we would submit from 
the chairman of the committee, Mr. Upton. Without objection, so 
ordered.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Transportation is a critical component of our national 
responsibility to safely handle and dispose of spent nuclear 
fuel and high-level nuclear waste from our nuclear national 
defense programs.
    Spent nuclear fuel is stored at 75 sites around the country 
including on the shoreline of Lake Michigan at both the Cook 
and Palisades plants. Sixteen of the 80 sites no longer 
generate electricity and await repurposing for community use or 
commercial development. Unfortunately, these sites cannot be 
put to use until the spent fuel has been shipped away.
    The experts testifying today bring important perspectives. 
Among them are the states, which have primary authority for 
highway safety and community protection; the railroad industry, 
which develops technical standards for transporting nuclear 
materials, and understands system capacity limitations; and a 
former federal official who has literally lived the history of 
planning for transportation of spent fuel and high-level 
defense waste.
    Whether we authorize temporary away-from-reactor storage, 
focus on finishing out the permanent repository, or pursue both 
simultaneously, we must address the underlying transportation 
issues. There are many issues and questions to take into 
consideration and we must work to understand them in order to 
build an efficient and effective transportation system.
    How quickly can the federal government start shipping spent 
fuel? What are the repackaging issues? Is the railroad designed 
to ship spent nuclear fuel and high-level nuclear waste? What 
are the state and local stakeholders' primary concerns? Are the 
obstacles technical, institutional, or political? I hope 
today's hearing will answer some of these questions.

    Mr. Shimkus. Does anyone else on the majority side seek 
time?
    Seeing none, the chair now recognizes the ranking member of 
the full committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    The Nuclear Waste Policy Act of 1982 made the 
transportation and long-term storage of nuclear waste the 
responsibility of the Secretary of Energy. The subcommittee has 
held several hearings on long-term storage, but has been less 
focused on transportation issues. No matter what site or 
combination of sites are eventually chosen for storage, 
transportation issues will have to be addressed. So I welcome 
the opportunity to focus on those issues today.
    Over the last decades as political fights have brewed over 
Yucca Mountain and its alternatives, spent nuclear fuel has 
generally been left onsite at the nuclear power reactors where 
it has been generated. It is stored in cooling pools and then 
eventually in dry casks. For many communities around nuclear 
power plants, this onsite storage raises serious concerns, and 
as the inventory of spent fuel stored on site grows, so do 
those concerns.
    In New Jersey, we have several operating nuclear reactors 
that provide carbon-free electricity. This includes Oyster 
Creek, the Nation's oldest operating plant which will soon stop 
providing power but will continue to provide a home to spent 
nuclear fuel until a long-term plan for managing nuclear waste 
is finalized. Like the challenge of siting permanent and 
interim repositories, the challenge of transporting nuclear 
waste involves both technical and societal concerns. 
Transportation must be done safely with robust protections, 
even in the case of intentional malevolent acts and exceptional 
accidents.
    Technical issues include the suitability of storage casks 
for transportation, safety of transporting high burnt-up fuel, 
and the safety of repackaging spent fuel currently in storage 
onsite. The Department of Energy and stakeholders must work 
together to address these technical issues. But addressing the 
technical concerns is not enough. Transportation must also be 
done with public acceptance, which can only be built with 
transparency and outreach. And I think all levels of 
government, state, local, and tribal, must be involved for 
these efforts to be successful. And I expect the witnesses on 
today's panel to agree.
    So again, I thank the chairman and our ranking member, Mr. 
Tonko, for convening this panel, and I look forward to the 
witnesses.
    I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Now the chair likes to again formally or informally welcome 
you all to the hearing. We have got a big panel. Your full 
statement is in the record. You have 5 minutes. We are not 
going to be, obviously, militant about the time, but when the 
red light pops up, if you can know to start summing up. And I 
will just introduce you as your time to speak is.
    So, first starting from my left, your right, we have Mr. 
Christopher Kouts, managing partner of Kouts Consulting. Sir, 
you are recognized for 5 minutes. Welcome.

   STATEMENTS OF CHRISTOPHER KOUTS, MANAGING PARTNER, KOUTS 
COUNSELING; EDWARD R. HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, ASSOCIATION OF AMERICAN RAILROADS; KELLY HORN, CO-
   CHAIRMAN, MIDWESTERN RADIOACTIVE MATERIALS TRANSPORTATION 
  COMMITTEE; ROBERT QUINN, VICE PRESIDENT, CASK AND CONTAINER 
       TECHNOLOGY, ENERGYSOLUTIONS; CHAIRMAN, SPENT FUEL 
TRANSPORTATION TASK FORCE, U.S. NUCLEAR INFRASTRUCTURE COUNCIL; 
 FRANKLIN RUSCO, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
   U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND, KEVIN KAMPS, 
           RADIOACTIVE WASTE WATCHDOG, BEYOND NUCLEAR

                 STATEMENT OF CHRISTOPHER KOUTS

    Mr. Kouts. Thank you, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. I am Christopher Kouts, 
former principal deputy director and acting director of the 
Department of Energy's Office of Civilian Radioactive Waste 
Management, OCRWM. I appreciate the invitation to appear before 
the subcommittee to provide my perspective on high-level 
radioactive waste materials transportation planning.
    As background, for 25 years I served in various technical 
and management positions in virtually every program area within 
OCRWM. In those positions I was responsible for nuclear waste 
transportation, interim storage, disposal, systems analysis, as 
well as activities related to the management of the standard 
contract with nuclear utilities. I became the principal deputy 
director of the program in 2007, and was the acting director 
from 2009 until I retired in early 2010 after 35 years of 
Federal service. The program was terminated later in 2010 by 
the current administration after nearly 30 years of existence; 
a program established by the Nuclear Waste Policy Act of 1982, 
as amended, the NWPA.
    The transportation of spent nuclear fuel and high-level 
radioactive waste materials has been safely undertaken both 
nationally and internationally for over 40 years. The 
containers within which the materials are carried are the most 
robust in the commercial transport world. The designs for 
transportation casks must be certified by the Nuclear 
Regulatory Commission, the NRC, to meet rigorous standards that 
encompass, with safety margins, the envelope of potential 
accidents that a railway or trail carrier could experience. 
Over the long history of high-level waste shipments, there have 
been accidents, but none of those accidents released 
radioactive materials.
    The routing of truck and rail shipments is well understood 
and well practiced. Truck shipment routing is regulated by the 
U.S. Department of Transportation, DOT, which requires that the 
shipments must be routed primarily on the Interstate highway 
system unless State-designated alternatives are submitted to 
DOT. Since railway lines are privately owned, railroad carriers 
coordinate across various rail lines to determine routing 
between the point of origin and the destination.
    Planning for spent fuel transportation campaigns to an 
interim storage facility or geologic repository will require 
continued effort for more than a decade before a facility is 
planned to begin operation. Procuring the necessary 
transportation casks, rail cars, truck trailers and other 
equipment will require sustained and adequate funding to assure 
that the necessary equipment will be available and tested to 
meet the shipping rates required for the receiving facility.
    The greatest challenge regarding transportation planning in 
the current highly uncertain policy environment is to discern 
what level of activities are appropriate given the status of 
the development of the receiving facility. Two of the obvious 
critical needs of meaningful transportation planning are 
knowledge of the point of origin and knowledge of the 
destination point for the shipments.
    In this case, the points of origin are well known. Focusing 
on commercial spent nuclear fuel, approximately 74,000 tons are 
currently being stored at 73 sites in 33 States. However, no 
amount of transportation planning can overcome the lack of a 
definitive destination for these shipments. Until this 
administration came into office, this Nation had a potential 
destination for commercial spent fuel and defense high-level 
radioactive waste that had been under study for over 35 years, 
Yucca Mountain.
    The Yucca Mountain site was developed in accordance with 
the requirements of the carefully crafted NWPA. The site 
underwent nearly 20 years of intense scientific site 
characterization, was recommended to the President in 2002 for 
further development, and was approved by Congress that same 
year, overriding the statutorily submitted notice of 
disapproval by the Governor of Nevada, and was well into the 
NWPA-mandated 3-year license review process by the NRC when the 
project was halted.
    The administration tells us that a pilot spent fuel interim 
storage facility will be available for shut-down reactors in 
2021, a larger interim storage facility in 2025, and a new 
geologic repository in 2048. Yet the required legislation for 
implementing those facilities is not even on the horizon for 
enactment, making those dates notional at best and fantasy at 
worst. Over 30 years of experience tells me that the most 
certain path for the Nation to find an eventual destination for 
these materials is already in place and has been since 1982. 
The only ingredients we lack are the leadership and the resolve 
to make it happen.
    Thank you for this opportunity to discuss these issues, and 
I would be pleased to answer questions the subcommittee might 
have at this time.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Kouts follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Now I would like to turn to Mr. Edward 
Hamberger?
    Mr. Hamberger. Yes, sir.
    Mr. Shimkus. I messed up Kouts' name. So I want to make 
sure I get that right.
    President and chief executive officer of the Association of 
American Railroads. Again, you are welcome and recognized for 5 
minutes.

                STATEMENT OF EDWARD R. HAMBERGER

    Mr. Hamberger. Thank you, Mr. Chairman, Ranking Member 
Tonko. On behalf of the members of the Association of American 
Railroads, thank you for the opportunity to be here this 
morning to discuss the transportation of spent nuclear fuel.
    Before I get into my prepared remarks, I would like to 
thank you, Mr. Chairman, and you, Congressman Flores, for your 
early co-sponsorship of H.R. 3651, the Positive Train Control 
Enforcement and Implementation Act of 2015, which I hope will 
see the House floor perhaps as early as next week. Thank you.
    If policymakers determine that it is in the public interest 
for meaningful amounts of spent nuclear fuel to be transported 
to one or more repositories, railroads will most likely be 
called upon to handle most of those movements. The Department 
of Energy has long indicated its preference for using rail to 
transport spent nuclear fuel, and the Yucca Mountain project 
had formally established a mostly rail policy before the 
program was cancelled.
    In 2006, the National Academy of Sciences Committee 
reaffirmed the preference for using rail, saying that it, 
``strongly endorses DOE's decisions to ship spent fuel and 
high-level waste to the Federal repository by mostly rail using 
dedicated trains.'' And in January 2012, the Transportation and 
Storage Subcommittee of the Blue Ribbon Commission on America's 
nuclear future repeated the National Academy's point to, 
``mostly rail has clear advantages.''
    The preference for rail is based predominantly on safety. 
Nothing is more important to railroads than our safety, and the 
industry's commitment to safety is reflected in safety 
statistics from the Federal Railroad Administration. The train 
accident rate in 2014 was the lowest ever, down 80 percent from 
1980, and down 44 percent from 2000. Rail safety extends to 
hazardous materials as well. In fact, railroads are the safest 
mode for transporting hazardous materials.
    In 2014, 99.999 percent of rail hazmat shipments reached 
their destination without a release caused by a train accident. 
Rail hazmat accident rates in 2014 were down 95 percent since 
1980, and 66 percent since 2000. Although no firm in any 
industry can guarantee that it will never suffer an accident, 
the railroads' overall safety record should give this 
committee, and hopefully the public, confidence in the rail 
transport of spent nuclear fuel if policymakers decide that the 
public interest requires its transportation.
    Railroads recognize that public concern over radioactive 
materials requires that all parties involved in the transport 
take special measures to ensure safe movement. In particular, 
the Departments of Energy and Defense, as shippers of the spent 
nuclear fuel, the NRC and Department of Transportation, as the 
regulators of the safety aspects of hazmat transport, and of 
course the railroads themselves must work together to design 
the safest possible transportation system for spent nuclear 
fuel.
    That system must include the use of dedicated trains. That 
is, trains with no other freight than spent nuclear fuel 
carefully monitored and traveling directly from origin to 
destination. Dedicated trains offer numerous safety advantages 
that would reduce the already very small possibility of an 
accident involving spent nuclear fuel. Advantages of dedicated 
trains include, eliminating the need to switch the shipments in 
rail yards, the ability to use cars with special safety 
features designed to handle the extreme weight of spent nuclear 
fuel shipments, and reduce time in transit. Dedicated trains 
can be transported with greater security. Escorts which are 
required by the Nuclear Regulatory Commission for all spent 
nuclear fuel movements are able to monitor the spent fuel much 
more easily on dedicated trains than in general freight 
service.
    Equipment standards for spent nuclear fuel trains are 
exceedingly stringent. As we have just heard from Mr. Kouts and 
will later hear from Mr. Quinn, spent fuel requires transport 
in massive steel casks that are several feet in diameter and 
are able to withstand a range of extreme forces.
    In addition, the AAR has developed a rail car standard with 
special designed features exclusively for spent nuclear fuel.
    Many of the issues surrounding the transportation of spent 
nuclear fuel and other high-level wastes are controversial. And 
many issues remain to be resolved. What isn't controversial is 
that the transportation of spent nuclear fuel requires extreme 
care. If policymakers determine that a single or several 
regional repositories for spent nuclear fuel are in the public 
interest, the railroads stand ready to work with the relevant 
entities on all issues regarding its transportation.
    Railroads are confident they can provide the necessary 
level of care. But doing so will require close cooperation and 
extensive planning involving DOE, DOT, state and local 
governments, and others if safety and security is to be 
maximized. One example of that is this past summer we were 
pleased to host the Nuclear Waste Technical Review Board at our 
transportation technology center in Pueblo, Colorado, where we 
were able to demonstrate some of the new technologies we are 
working on to improve safety at our emergency response training 
center, which would be available for training for spent nuclear 
fuel as well.
    Thank you for the opportunity to be here.
    Mr. Shimkus. Thank you very much.
    [The statement of Mr. Hamberger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Shimkus. The State of Illinois has a new 
administration. So I think I am welcoming the first member from 
the new administration in Illinois to testify before a 
committee in the House of Representatives.
    So being from Illinois, I am particularly pleased to 
welcome Mr. Kelly Horn from the Illinois Emergency Management 
Agency, co-chairman of the Midwestern Radioactive Materials 
Transportation Committee, Council of State Governments. We are 
glad to have you here, and you are recognized for 5 minutes.

                    STATEMENT OF KELLY HORN

    Mr. Horn. Thank you. Chairman Shimkus, Ranking Member 
Tonko, members of the subcommittee, on behalf of the great 
State of Illinois and the Council of State Governments, 
Midwestern Radioactive Materials Transportation Committee, 
thank you for inviting me to talk about the transportation of 
spent fuel and the important roles that states have in this 
matter. My testimony today is strictly for informational 
purposes.
    As a region, the Midwest has a very large stake in the 
future Federal program to transport spent fuel from commercial 
nuclear power plants. As noted in my written testimony, we have 
a large nuclear fleet and a sizeable inventory of spent fuel in 
storage. In addition, our geographical location makes it likely 
we will be affected by shipments traveling from other regions 
to any site for waste management.
    Transporting the spent fuel is not a new concept. As a 
Nation, we have been doing it safely for the past 40 years. The 
U.S. Department of Transportation and the U.S. Nuclear 
Regulatory Commission have primary oversight for spent fuel 
shipments. Under the Nuclear Waste Policy Act, the U.S. 
Department of Energy is responsible for moving commercial spent 
fuel to authorized facilities. States are involved because we 
are co-regulators of transportation. We bear the primary 
responsibility for protecting the public health, safety, and 
environment, as well as enforcing State-specific laws with 
regards to shipments. We are responsible for training emergency 
personnel and serve as the intermediary between Federal and 
local governments.
    Several States including Illinois have experience with 
spent fuel shipments on a small scale. However, since 1999, 
many states have gained firsthand experience with the very 
large national program to move a different type of radioactive 
waste, transuranic, or TRU waste, from defense-related 
facilities. The Department of Energy disposes of TRU waste at 
its Waste Isolation Pilot Plant, WIPP, outside of Carlsbad, New 
Mexico. As noted by the National Academies and others, the WIPP 
transportation program is a good model for a national spent 
fuel transportation program because it is large, complex, 
highly successful, and has the support and buy-in of affected 
states and tribes.
    While WIPP is a good model, there are many differences 
between the TRU waste shipments and spent fuel shipments that 
go beyond just the type of material being shipped. One critical 
difference is the Federal assistance available to states and 
tribes. Section 180(c) of the Nuclear Waste Policy Act, and 
16(d) of the Land Withdrawal Act, both require Federal 
financial and technical assistance for states and tribes that 
will be affected by shipments. Section 180(c) refers to this 
assistance being intended for training, and DOE has interpreted 
this provision very narrowly.
    Grants that may be available someday under Section 180(c) 
are not likely to allow states to recoup operational costs. In 
contrast, Section 16(d) of the Land Withdrawal Act refers to 
transportation programs, thereby allowing states to do more 
than just train. We have the flexibility to effectively manage 
and mitigate all impacts we experience from WIPP shipments.
    A second difference between TRU waste shipments and spent 
fuel shipments is that DOE will transport spent fuel mostly by 
train, whereas WIPP shipments travel solely by highway. For 
WIPP shipments, the states conduct rigorous safety inspections 
following the Commercial Vehicle Safety Alliance Level VI 
enhanced inspection procedure. The DOT-required Level VI 
inspection identifies the items to be checked, standardizes the 
process for logging findings and sharing results, and assures 
accountability from a duly certified state inspector who 
performs the inspection.
    For rail shipments of spent fuel, we do not yet have an 
enhanced reciprocal inspection program analogous to what we 
have for trucks. Another impact of mode-related difference is 
that states have the authority to designate routes for highway 
shipments of radioactive material, but we do not have the 
authority over routes for rail.
    The states recognize that the public will hold large-scale 
shipments of spent fuel to a higher standard than that of other 
DOE shipments. And so we feel strongly DOE must adopt 
reasonable measures to minimize public risk and maximize public 
confidence in the transportation program. These measures 
include, but are not limited to, state involvement in route 
identification, the development of a reciprocal rail inspection 
program, and a financial support system for a transportation 
safety program that is consistent with the WIPP model.
    All these elements have DOE's TRU waste transportation 
program become the model it is today. The states believe DOE 
will need to implement, at a minimum, the same elements in 
order to achieve the goal of transporting spent fuel in a 
manner that is safe, secure, efficient, and merits public 
confidence.
    Mr. Chairman, on behalf of the great State of Illinois and 
the Council of State Governments, Midwestern Radioactive 
Materials Transportation Committee, I thank you for hearing my 
testimony.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Horn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Next we will turn to Mr. Robert Quinn, who is 
vice president, Cask and Container Technology Energy Solutions, 
chairman of the Spent Fuel Transportation Task Force, U.S. 
Nuclear Infrastructure Council. You are recognized for 5 
minutes. Welcome.

                   STATEMENT OF ROBERT QUINN

    Mr. Quinn. OK. Thank you, and good morning. My name is Bob 
Quinn. I am the vice president, as you said, of Cask Container 
Technology at EnergySolutions, which is a U.S.-based 
internationally operating nuclear services company, 
specializing in safe recycling, processing, and disposal of 
nuclear material. And EnergySolutions is a member company of 
the U.S. Nuclear Infrastructure Council, which is a leading 
business association advocate for new nuclear energy and global 
engagement of the U.S. supply chain.
    I am currently serving as the chair of the council's spent 
nuclear fuel transportation task force, and I must note that my 
statements today reflect the consensus views of the council and 
the Spent Fuel Transport Task Force, but do not necessarily 
reflect the specific views of any individual member, company, 
or organization.
    Transportation of nuclear materials, including spent 
nuclear fuel, is not new or novel, and has, in fact, been done 
for the last 70 years with an outstanding safety record. And 
for 40 years of that we have been shipping spent fuel. Nuclear 
materials are transported on an ongoing basis all over the 
world by public highway, rail, barge, ocean vessels, and air. 
About three million packages of radioactive materials are 
shipped each year in the United States.
    Spent fuel shipments from commercial nuclear power plants, 
research reactors, and the Navy have been made safely for 
decades. The U.S. Navy has completed about 850 shipments 
totalling 1.6 million miles of transport. And since the mid-
1970s, there have been over 1,300 safe shipments of commercial 
spent fuel in the United States. Between 1990 and 2012, 60 
shipments, including more than 250 transportation casks of 
foreign research reactor fuel have been shipped to and within 
the United States by sea, land, and air. Shipments continue 
today.
    Just recently two shipments arrived at Savannah River. 
There is a long history of safe, successful transportation of 
spent fuel globally as well. Over 70,000 metric tons of spent 
fuel have been transported by road, rail, and sea within and 
among the United Kingdom, France, Germany, Sweden, Japan, and 
other nations. In all these shipments, there has been no 
failure of a package and no release of radioactive materials.
    Spent fuel is transported in packages which are also often 
referred to as shipping casks that are designed and fabricated 
to provide shielding of the radiation that is emitted by the 
fuel, and also to prevent the release of radioactive material 
even in severe accidents. The standards for the transportation 
packages are regulated by Federal law, which is enforced by the 
U.S. Nuclear Regulatory Commission for domestic shipments.
    For international shipments, there are similar regulations 
that are promulgated by the International Atomic Energy Agency. 
An independent review of these current international and U.S. 
standards and regulations performed by the National Academies, 
as documented in their 2006 Going the Distance report, 
concluded that these regulations are adequate and proven to 
ensure package containment effectiveness during both routine 
transport and in severe accidents. And the Blue Ribbon 
Commission on America's nuclear energy future also noted that 
the standards and regulations for spent fuel transportation are 
proven and functioning well.
    The regulations require that the demonstration of the 
package meet demanding criteria for normal operating and 
accident conditions, including impact, fire, submersion, and 
puncture resistance before the NRC will certify them for use. 
These prescribed hypothetical accident conditions are 
challenging and have been demonstrated to be bounding of 
realistic real world accident scenarios.
    Demonstrations that the regulatory requirements are 
satisfied by a package design is done by detailed computer 
simulation analyses using state of the art analytical and 
modeling tools, and by confirmatory testing of specific 
features or details, scale models, or in some cases, even full 
scale casks. The NRC review of certification applications for 
spent fuel transport casks is extremely thorough, and typically 
takes 1 \1/2\ to 2 years to complete. And these certificates 
must be renewed every 5 years.
    Resulting spent fuel transportation packages that receive 
NRC certification are extremely robust, state-of-the-art 
containers. They are typically comprised of multiple layers of 
steel and radiation shielding. Current generation spent full 
casks weigh well in excess of 100 tons. And there have been 
extreme demonstrations of the robustness of these packages that 
have been performed in the United States and the United Kingdom 
showing casks being hit by trains and plowing into solid 
concrete bunkers at high rates of speed.
    In each of these demonstrations, the casks maintained their 
integrity and suffered only superficial damage. The U.S. 
Nuclear Infrastructure Council believes that the history of 
nuclear materials and spent fuel transportation demonstrates a 
commendable safety record. Transportation of nuclear materials, 
including spent fuel, is not new or novel. The facts speak for 
themselves. For more than 70 years of nuclear material 
transport, and 40 years of spent fuel transport in the U.S. and 
worldwide, no member of the public has ever been harmed from a 
radioactive release.
    This is a testament to the effectiveness of the regulatory 
requirements and processes which are adequate and well proven, 
and the industry's implementation of the regulatory 
requirements in partnership with regional and local 
governments. The rigorous engineering methods, manufacturing 
processes, ongoing operational and periodic maintenance 
requirements, and implementing procedures have provided and 
will continue to provide assurance of safety of spent fuel 
transportation.
    Thank you for your time.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Quinn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Shimkus. Next we will turn to Mr. Franklin Rusco, 
director, Natural Resources and Environment with U.S. 
Government Accountability Office. You are recognized for 5 
minutes. Welcome.

                  STATEMENT OF FRANKLIN RUSCO

    Mr. Rusco. Thank you. Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee, I am pleased to be here 
today to discuss GAO's work on spent nuclear fuel management, 
and particularly challenges associated with transporting spent 
fuel.
    In our past work we have identified three key challenges to 
transporting spent nuclear fuel. First, DOE does not have clear 
legislative authority for either consolidated interim storage 
or for permanent disposal at a site other than Yucca Mountain. 
Specifically, provisions in the Nuclear Waste Policy Act of 
1982, that authorized DOE to arrange for consolidated interim 
storage have either expired or are unusable.
    For permanent disposal, the amendments to the Nuclear Waste 
Policy Act of 1982 directed DOE to terminate work on sites 
other than Yucca Mountain. Without clear authority, DOE cannot 
site an interim storage or permanent disposal facility and make 
related site-specific transportation decisions for commercial 
spent nuclear fuel.
    Second, there are multiple technical challenges to safely 
transporting spent nuclear fuel. These challenges can be 
resolved, but it will take time and could be costly. 
Specifically, there are uncertainties about the safety of 
transporting what is considered to be high burn up spent 
nuclear fuel, newer fuel that burns longer and at a higher rate 
than older fuel because of potential degradation while in 
storage. Also, NRC guidelines for dry storage of spent nuclear 
fuel allow higher temperatures and external radiation levels 
than do guidelines for transportation of such fuel. As a 
result, spent nuclear fuel already in dry storage is not 
readily transportable without being re-casked.
    In addition, the current transportation infrastructure, 
particularly for a mostly rail option of transportation, which 
is DOE's preferred mode, may not be adequate without procuring 
new equipment and costly and time-consuming upgrades on the 
rail infrastructure.
    Third, and perhaps the most daunting challenge, is 
achieving societal acceptance of any plan to move or store 
spent nuclear fuel. Specifically, in order for stakeholders and 
the general public to support any spent nuclear fuel program, 
particularly one for which a site has not yet been identified, 
there must be a broad understanding of the issues and risks 
associated with management of spent nuclear fuel, as well as 
what can be done to mitigate these risks. Also, some 
organizations that oppose DOE have effectively used social 
media and other means to promote their agendas to the public. 
But DOE has no coordinated outreach strategy to reflect their 
own views on this.
    Given these challenges, it may take many decades to 
implement a storage strategy and transport the fuel that will 
almost all be in dry storage by then. So the question is what 
can DOE and other agencies do to prepare to take possession of 
spent nuclear fuel as required by law? With regard to building 
societal consensus around transport and storage of spent 
nuclear fuel, we believe DOE has authority and should be doing 
more public outreach to try to build such consensus.
    What else can be done? Can DOE, NRE, and DOT identify spent 
nuclear fuel dry storage and transportation options that are 
not dependent on a specific interim or permanent storage 
strategy, but that will save time and money once the issue of 
siting an interim or permanent storage site have been resolved? 
Can they ask Congress for authority to pursue such storage site 
neutral efforts to resolve technical challenges? Hopefully, 
this hearing can begin to answer these questions.
    Thank you. This ends my statement. I would be happy to 
answer questions.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Rusco follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Mr. Shimkus. Last but not least, we have got Mr. Kevin 
Kamps, Radioactive Waste Watchdog with Beyond Nuclear. You are 
recognized for 5 minutes. Welcome.

                  STATEMENT OF KEVIN J. KAMPS

    Mr. Kamps. Thank you, Chairman Shimkus, Ranking Member 
Tonko, and members of the subcommittee. My name is Kevin Kamps. 
I serve as Radioactive Waste Watchdog at Beyond Nuclear based 
in Takoma Park, Maryland.
    Our country needs to avoid radioactive waste wrecks, both 
figurative of policy, as well as literal on our roads, rails, 
and waterways. We need to just say no to unwise irradiated 
nuclear fuel transport, storage, and disposal schemes that have 
more to do with offloading nuclear utilities' liabilities onto 
the public than on protecting health, safety, and the 
environment.
    Transporting high-level radioactive waste by truck, train, 
and barge through 45 States and the District of Columbia to the 
unsuitable Yucca Mountain, Nevada, site would take unnecessary 
risks and violate consent-based and environmental justice 
principles.
    Yucca is the worst site ever studied for high-level 
radioactive waste disposal. It has been kept alive by double 
standards. When Yucca can't meet the standards, they are either 
weakened or gotten rid of. Yucca is an earthquake and volcanic 
zone. If radioactive waste is ever buried there, it will leak 
massively into the groundwater, creating a large nuclear 
sacrifice zone downstream.
    Nevada has not consented to being railroaded into becoming 
this country's radioactive waste dump. The Western Shoshone 
Indian Nation who live downstream have accused Federal 
officials of environmental racism.
    Consolidated interim storage also makes no sense. Take 
private fuel storage targeted at the Skull Valley Goshutes 
Indian reservation in Utah. If that de facto permanent parking 
lot dump had ever opened and imported 4,000 casks of 
radioactive waste, they would have been returned to sender when 
Yucca was cancelled. Fifty casks from Maine would have traveled 
5,000 miles roundtrip for nothing.
    High-level radioactive waste shipments are potential mobile 
Chernobyls. Risks include long-lasting high temperature fires, 
as NAS acknowledged in 2006, which could breach shipping 
containers and release disastrous amounts of hazardous 
radioactivity in heavily populated areas.
    Barge shipments on the Great Lakes, California's Pacific 
coast, the waters of New Jersey, and numerous other rivers and 
seacoasts, including in New York, are potential floating 
Fukushimas, risking radioactive contamination of vital drinking 
water supplies and the food chain, and even deadly nuclear 
criticality accidents if submerged.
    A quality assurance meltdown in industry and at NRC 
revealed by whistleblowers and accidents adds to the risks of 
shipments. Calling into question, as but one example, Holtec 
casks' structural integrity sitting still, let alone traveling 
60 miles per hour or faster on the rails.
    NAS also emphasized that risks of terrorist attacks need to 
be addressed. A 1998 test of a TOW anti-tank missile on a 
shipping container conducted at the U.S. Army's Aberdeen 
Proving Ground showed that casks are potential dirty bombs on 
wheels. Combined with an incendiary device, such breaches could 
cause a large-scale radioactivity release.
    Incredibly, DOE is throwing caution to the wind, proposing 
unprecedented liquid high-level radioactive waste truck 
shipments from Chaulk River, Ontario, to Savannah River, South 
Carolina, with little to no environmental assessment. Even 
after the Blue Ribbon Commission heard many calls for 
environmental justice, it nonetheless kept Native American 
communities on the target list for centralized interim storage. 
But as Keith Lewis of the Serpent River First Nation put it, 
there is nothing moral about tempting a starving man with 
money.
    As President Obama honored Grace Thorpe for helping 60 
Native communities, six-zero, Native communities, fend off 
DOE's parking lot dumps, such radioactive racism must stop.
    Through sheer luck, the Los Alamos barrel that burst in the 
WIPP underground do not do so while being shipped, or 
astronomically costly and hazardous radioactive releases to the 
environment and worker or public alpha inhalation doses could 
have been much worse. Waste control specialists in Texas, a 
lead contender for a parking lot dump, hastily hosted similar 
potentially explosive barrels in the open air, which could put 
not only the Ogallala Aquifer at risk, but also the radioactive 
waste storage targeted at that site.
    Savannah River site and Dresden Nuclear Power Plant in 
Illinois are also inappropriate targets for parking lot dumps, 
as they are already heavily burdened by radioactive 
contamination and large-scale radioactive waste storage.
    So if Yucca and parking lot dumps are bad ideas, what are 
some solutions? We should phase out nuclear power, stop the 
generation of high-level radioactive waste, and replace the 
electricity and jobs with renewables and efficiency. For the 
high-level radioactive waste that already exists, 200 groups 
representing all 50 states have been advocating hardened onsite 
storage for well over a decade. Vulnerable pools need to be 
emptied into quality dry casks that are built to last, 
safeguarded against accidents and natural disasters, and 
fortified against attacks.
    Thank you.
    Mr. Shimkus. Thank you very much.
    [The prepared statement of Mr. Kamps follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Mr. Shimkus. Now I will open the round of questions. I will 
start by recognizing myself for 5 minutes.
    And I would like to start with Mr. Horn, of course, from 
the great State of Illinois. Your testimony notes that the 
Nuclear Waste Policy Act authorized the Department of Energy to 
provide technical assistance and funds to States for training 
of public safety officials. Is DOE providing the funding as the 
law directs?
    Mr. Horn. Mr. Chairman, the way the 180(c) of the Nuclear 
Waste Policy Act states is that once a site is determined and 
states have the opportunity to analyze routing through their 
states and determine how affected their state will be, then 
they can submit to the DOE a funding mechanism asking for money 
under 180(c). So to date, since we do not have a facility to 
ship to, states and regional groups are not getting money under 
180(c).
    Mr. Shimkus. What additional recommendations do you have 
for DOE with respect to implementing the provision?
    Mr. Horn. Once the 180(c) money and we as States and 
affected communities have the ability to petition the Federal 
Government for funding, it is the regional office's belief that 
the Nuclear Waste Policy Act should mirror that of the Land 
Withdrawal Act.
    And in my written and oral testimony, I alluded to that. If 
we looked at the Land Withdrawal Act, we see that states have a 
comprehensive ability to look at their programs and determine 
more than just training issues. We have the ability to provide 
first responders with equipment. We have the ability to reach 
out and do public outreaches to communities along the affected 
shipment routes. Where under the Nuclear Waste Policy Act, 
180(c), all we can do is train those first responders. And 
although we find that to be very helpful, it does not get us to 
where we need to be.
    Mr. Shimkus. Would further congressional direction assist 
organizations such as yours to be fully prepared for the 
transporting of spent fuel?
    Mr. Horn. As I stated in my oral testimony, my comments 
here today are strictly for informational purposes. However, 
with that stated, I would direct you to the Blue Ribbon 
Commission study and Section 9.4, which has some very well-
thought-out recommendations, and they took a lot of those 
recommendations from state testimony.
    Mr. Shimkus. Thank you very much.
    Mr. Kouts, advocates for interim storage often neglect to 
acknowledge the complicated efforts associated with a national 
transportation campaign. Given your professional experience at 
the Department of Energy, if Congress were to pass a bill 
authorizing interim storage of used fuel, what is the earliest 
that DOE could adequately develop a routing, procure the rail 
cars, and ship commercial spent fuel to an interim storage 
site?
    Mr. Kouts. Well, that is a fascinating question, Mr. 
Chairman. And thank you for it. I actually used to do those 
kinds of estimates when I was at the Department, and I will--we 
used to develop success-oriented schedules. And I will walk you 
through the steps in that schedule very quickly. I am going to 
make some assumptions about the legislation you pass because 
that will be critical in determining the timeframe.
    Let's assume for the first piece about the siting of the 
facility that Congress would need to approve the site and also 
approve any benefits agreement associated with that site 
because that would require appropriated funds to be given to 
the localities around the site or the State. My sense is that 
that would be probably, if we are going at warp speed here, 
probably at a 4-year process.
    To find the site, and the rage these days is consent-based 
siting, to negotiate with them, to get an agreement, to get it 
to Congress, and get the Congress approve it. So we are 
probably 4 years away from identification from a site.
    The next step would be, this is a major Federal action, it 
would require an EIS. And since this would be a very 
controversial facility, as you can tell from some of the 
comments from the panel here, my sense is that warp speed to do 
a major EIS would probably be about 4 years. So you are up to 
eight right there.
    During that same timeframe you could be doing the design of 
the facility, you could be doing the preparation of a license 
application. And I am going to assume that the legislation also 
requires the NRC to review the license.
    So at the end of the 8-year period you submit the license 
application. I am also going to assume that the legislation 
will limit the amount of time that NRC has to review the 
license, just as it did with Yucca Mountain. So let's say there 
is a 3-year process that the NRC is given, or a 3-year 
timeframe. You are up to 11 years.
    At that point, assuming that the licensing goes well, you 
begin to build the facility. At that point it is probably a 2- 
to 3-year construction period. Probably 2 years to construct it 
if everything is ready to go on day one, and about a year to 
shake it down to make sure everythingis good. So basically you 
are at 13 to 14 years, 14 years into the future.
    Now let me just say this about these kinds of facilities. 
Nothing goes as planned. Back when the people were drafting the 
Nuclear Waste Policy Act in 1982, they assumed that we would 
have an operating repository by January 31, 1998. They thought 
16 years was plenty of time to do a repository. OK. So that 
turned out to be wrong. And had Yucca Mountain continued, the 
earliest we could have started would have been 2021. So 
basically there is going to be schedule drift. And since 
interim storage facilities are simpler, if you will, than 
repositories, I would say you are at least, let's say, a 50 
percent schedule drift. So you are anywhere between 14 and 21 
years assuming you had legislation today, before that facility 
would begin to operate.
    Mr. Shimkus. My time is expired.
    Now I will turn to the ranking member of the subcommittee, 
Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Nuclear waste transport is an essential component of any 
long-term waste management strategy. Although some on this 
panel have suggested that this practice is well established and 
understood, large-scale transportation required under a long-
term strategy will pose serious challenges. We must ensure that 
this transportation can be done and done safely.
    Mr. Rusco, GAO identified several technical challenges for 
transporting spent nuclear fuel in its recent study. Would you 
please briefly explain some of the remaining technical 
challenges involved in repackaging spent fuel from storage 
casks to transportation casks?
    Mr. Rusco. So much of the spent nuclear fuel now is stored 
in dry casks that themselves are designed to be temporary, and 
to sit on these pads until an interim site is found, developed, 
and then they will have to be re-casked, for shipment. And 
while there are casks that have shipped spent nuclear fuel 
before, there are different kinds of spent nuclear fuel. As we 
get more high burned up fuel that has different 
characteristics, it will have to be casked differently than the 
other fuel.
    One of the main issues is that to re-cask something you 
have to have a facility to re-cask it in. And you could use a 
wet pool that is on a nuclear power plant facility. But as time 
passes and these nuclear facilities close, then they will start 
decommissioning. Those pools will be shut down, and at some 
point you are going to have to then build a re-casking facility 
in order to move these things. These are all things that can be 
dealt with, but the clock is ticking, and so the longer it 
takes to start that process, the more fuel will be out there 
without a ready place to re-cask it.
    Mr. Tonko. Thank you.
    In recent years, some reactor operators have used fuel that 
is burned longer in the reactor which results in that high burn 
up fuel. This spent fuel is both hotter and more radioactive 
than other forms of nuclear waste. Are there outstanding 
technical questions about how to safely transport that fuel 
element, the high burn up fuel?
    Mr. Rusco. In our most recent report, we talked to a number 
of experts, and they said that there were remaining technical 
issues that needed to be resolved. Everyone thinks that they 
can be resolved. But no oneis going to invest the amount of 
money to do so until there is an actual reason to do it.I21Mr. 
Tonko. And do you have additional concerns about the 
sufficiency of current infrastructure to support 
transportation?
    Mr. Rusco. Certainly there will need to be enhancements to 
the rail infrastructure if we are to transport fuel from many 
of the sites where it currently resides because there is not 
sufficient rail infrastructure there at the time. Again, these 
are challenges that can be addressed, but they will take time 
and money.
    Mr. Tonko. Thank you.
    In 2006, the National Academies released a report on safe 
transport of nuclear waste and raised concerns about severe 
accidents which may involve long-duration fires. Mr. Kamps, is 
that a theoretical concern or are long-duration train fires a 
real possibility?
    Mr. Kamps. It is a very real world possibility. So one 
example was July of 2001 there was a train without radioactive 
waste onboard traveling through the Howard Street Tunnel 
downtown Baltimore that caught fire and burned for days. And 
the beginning of that fire was very hot. There were toxic 
materials that fueled that fire. And a study that was 
commissioned by the State of Nevada Agency for Nuclear Projects 
afterwards looked at the potential what if, hypothetical 
question, what if a Holtec transport container with high-level 
radioactive waste had been in the middle of that fire? And the 
results were shocking and concerning.
    Radioactivity would have breached out of that container 
over a course of hours, and would have entered that smoke that 
was pouring out both ends of the tunnels. Would have inevitably 
exposed people at the baseball stadium, living in downtown 
Baltimore. And let's see if I can remember the figures. The 
latent cancer fatalities that would have been inevitable would 
have been counted in the many hundreds. If people continued to 
live in contaminated areas in downtown Baltimore for a year, 
the number of latent cancer fatalities would have then grown to 
something like 1,500.
    And this is very expensive to clean up. Billions of 
dollars. In fact, $13 billion was the figure for the cleanup 
that would have been required. And then if people continued to 
live in that contamination for 50 years, five-zero, the 
casualties were over 30,000 latent cancer fatalities. And that 
is an accidental severe fire.
    The fire standards that are applied to these casks go back 
many decades. They have never been updated in all those 
decades. It is a 30-minute fire at around 1,500 degrees 
Fahrenheit. Less than that. This fire burned hotter than that 
for a longer period of time. So it is a very serious issue that 
the NAS itself documented.
    Mr. Tonko. And I would assume that DOE needs to ensure that 
transportation casks can withstand such fires?
    Mr. Kamps. Well, one would hope. Right now the Nuclear 
Regulatory Commission requirements do not require that casks 
survive more than 30 minutes in a relatively low-temperature 
fire. So real world accident conditions are much more severe 
than what these criteria call for.
    Mr. Tonko. Thank you. I have gone beyond my time. I 
appreciate the chair being tolerant, and with that I yield 
back.
    Mr. Shimkus. The gentlemen yields back his time.
    The chair now recognizes the gentleman from Ohio, Mr. 
Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman. And thanks for holding 
today's hearing. And to our panelists, thanks very much for 
being here.
    Mr. Hamberger, if I could start with you, assuming a 
permanent repository such as Yucca was given the green light 
today, how long do you think it would take to transport the 
nuclear waste in the United States to that site in which it was 
supposed to store?
    Mr. Hamberger. In conversation before the hearing began, I 
believe the plan from DOE was to move 3,000 tons a year. So I 
don't know how many years it would take to move.
    Mr. Kouts. If I could help you with that----
    Mr. Latta. Yes, Mr. Kouts.
    Mr. Kouts [continuing]. Congressman. Basically, it would 
take approximately 24 years to ship all the waste, up to the 
statutory limit, which is the 70,000 metric ton limit that 
exists in the act today. So the plan was the shipping campaigns 
would take 24 years. It would be about two to three train 
shipments per week.
    Mr. Latta. OK. Thank you.
    Mr. Hamberger, if I could also follow up with that, does 
the rail industry today have the cars available to transport 
that much right now?
    Mr. Hamberger. I believe that the standard that we adopted 
almost 10 years ago, S-2043, is still in development.
    So I believe it would be several more years before the car 
meeting that standard would be available.
    Mr. Latta. OK, Mr. Quinn, the Department of Energy recently 
stated it will need at least 7 to 9 years to design and procure 
a fleet of rail cars for the spent nuclear fuel shipment. 
Again, how long do you estimate it would take for the DOE to 
procure those necessary components, do you think, for the 
testing and everything else to get that done? Mr. Quinn?
    Mr. Quinn. Oh, sorry. As far as the transportation casks 
themselves, which is what I do for a living, once we have the 
specification from the Department of Energy of what casks they 
want, it would be about a 1.5- to 2-year effort to get them 
designed and to get the safety analysis report and license 
application ready to submit to NRC.
    It is about another 1.5 to 2 years to get that approval. So 
we are up to 3 to 4 years and then we can begin to construct 
the casks. Typical casks take about a year to fabricate. So 
depending on the size of the fleet that is required, it could 
take 2 to 3, or 4 years.
    Mr. Latta. Do we have the manufacturing capacity out there 
right now to be able to do that?
    Mr. Quinn. Yes, there are fabricators in the U.S. and 
overseas who have the capability to fabricate these casks.
    Mr. Latta. OK, thank you. Mr. Rusco, I found kind of 
interesting in your statement that you were talking about the 
DOE has no coordinated outreach strategy including social 
media. And there is a question it sounds like they are losing 
the information war out there in your research, and when you 
were looking at this, why is that? Did you ask the question, 
``why is that?'' when you were talking to the folks?
    Mr. Rusco. I think DOE feels that it doesn't have the 
authority to really take on this issue. They feel like they 
don't want to get too far down the path of discussing any 
specifics about a strategy until they have a consensus with 
Congress about where to go with it.
    Mr. Shimkus. Will the gentleman yield?
    Mr. Latta. Yes, absolutely, to the chairman.
    Mr. Shimkus. So is it true to say to say that DOE doesn't 
feel that they have the backing to comply with the law as it is 
written today?
    Mr. Rusco. I am not sure that is how they would put it, 
but----
    Mr. Shimkus. That is how I would put it, so I yield back.
    Mr. Latta. Thank you very much. Reclaiming my time.
    Mr. Kouts, if I could go back to you. DOE has five major 
computer-based tools to assist in integration and analysis of 
spent nuclear fuel storage and transportation programs. Are you 
aware if any of these tools has been integrated from the DHS' 
highly-developed risk-informed routing model?
    Mr. Kouts. I have been briefed on some of the DOE models 
that exist, and I don't know the answer to your question. The 
model I was briefed on was a tool for stakeholders to route 
shipments from point A to point B. And I think it had some work 
that still needed to be done, but in terms of the other models, 
I really can't comment on.
    Mr. Latta. OK, thank you. And Mr. Hamberger, in the last 
bit of time that I have, can you discuss the logistics of 
transporting nuclear waste by way of rail across the country 
from the East Coast or the Midwest to Yucca?
    Mr. Kouts. I don't have the specifics of what that route 
would be. I would prefer to answer that for the record if I 
might.
    Mr. Latta. OK. Well, thank you very much, and Mr. Chairman. 
My time is expired and I yield back.
    Mr. Shimkus [presiding]. The gentleman yields back his 
time. The chair recognizes the gentleman from California, Mr. 
McNerney for 5 minutes.
    Mr. McNerney. I thank the chairman. I just want to follow 
up on the chairman's comment about the DOE not having the 
backing. But the DOE needs the Federal resources allocated and 
appropriated by Congress to do that.
    Mr. Hamberger, you mentioned about a pretty sophisticated 
network to ship nuclear waste including casks and monitoring 
the trains and all that. How long would it take if you had the 
mandate--would the rail take to do that, how much would it 
cost, and would it have to share a cost with the Federal 
Government?
    Mr. Hamberger. I do not have the cost of the S-2043 car. I 
was told in preparation of this hearing it would be several 
hundred thousand dollars for each car, but I can, again, try to 
get that more specific.
    Mr. McNerney. Well, how long would it take to develop that 
technology? You had a whole network of----
    Mr. Hamberger. Two to three years.
    Mr. McNerney. Two to three years. Well, that is pretty 
fast. That is a lot faster than we could be ready in terms of a 
disposal site.
    Mr. Rusco, I want to ask a couple of rhetorical questions, 
but you mentioned how important it is for the public acceptance 
of the implementation of a relocation plan and the selection of 
relocation sites, and routes, and so on. You just affirmed that 
those require public acceptance?
    Mr. Rusco. Yes, I think a lot of the delays that we have 
seen that have gone past the expected completion in past 
strategies, particularly with the Yucca Mountain, much of that 
was the result of the lack of public acceptance, and I think 
transporting nuclear fuel through communities will, you know, 
engender some----
    Mr. McNerney. It is going to take transparency, I think as 
the chairman mentioned. Also, what steps do you think the DOE 
should take to build that acceptance? What would it take if we 
started today with the DOE? What steps should it take?
    Mr. Rusco. Obviously, as many of the witnesses have said 
today, we have been shipping nuclear radioactive waste for a 
number of decades. And to start with, one would want to examine 
that record and to make public what that record is, and how do 
we deal with the risks. To identify what the risks are, to be 
transparent about them, and to effectively transmit a strategy 
for mitigating those risks and stating, you know, how they will 
be mitigated.
    Mr. McNerney. And it is going to take a certain amount of 
resources to do that. Are we talking about just putting stuff 
on Web sites, or advertising on billboards, or how would you go 
about making the public aware?
    Mr. Rusco. I don't have a specific strategy for them. We 
really recommended that they develop a strategy for that, and 
we are not particularly specific on exactly how.
    Mr. McNerney. Well, transportation of nuclear waste is 
going to take acceptance at the Federal and at the state level. 
Mr. Horn, what do you think the States' role should be in 
implementing an outreach strategy?
    Mr. Horn. As I stated, the States when material is ready 
for transport and we know what routes are going to be affected, 
and those communities that are going to be affected, the States 
are going to be the intermediary between the Federal Government 
and the stakeholders, those local communities.
    So we ask that DOE and the Federal Government work in a 
cooperative, consultative manner with the states, and the 
states can be that intermediary between the two and we can go 
out and work with the local communities and do the training, 
the public outreach. We could be that tool that allows that 
message to be conveyed.
    Mr. McNerney. That is a pretty good role. States have 
better acceptance than the Feds in many communities. That is 
for sure.
    Let's see. Mr. Kamps, I had a question. You referred to a 
cruise missile test against a shipping container. Is that 
publicly available information, or is it classified 
information?
    Mr. Kamps. It was not a cruise missile. It was a TOW 
antitank missile and the test was in June of 1998 at Aberdeen 
Proving Ground in Maryland. It was kept quiet for a long time, 
but it came out right about the time of the Yucca Mountain 
votes in 2002.
    There was video that ABC News played and the specific 
results were that a hole about as big around as a grapefruit 
was shot through the side of a German CASTOR cask which is 15 
inches of die cast iron, which is much thicker than our U.S. 
shipping casks. That would have been the release pathway for a 
disastrous amount of radioactivity combined with an incendiary 
fire that would have driven the radioactivity out of the fuel.
    Mr. McNerney. So that might be our biggest threat in terms 
of shipping is a terrorist attack?
    Mr. Kamps. And the NAS, in 2006, said they did not have 
access to the classified and restricted information about the 
terrorism aspects of nuclear waste shipping. But yes, very much 
so, there are, I believe, thousands of TOW antitank missiles on 
the black market worldwide, and these train shipments would go 
through places like downtown Chicago within a quarter mile of 
the Art Institute. And I know that there is talk of dedicated 
trains bypassing major metropolitan cities, but they are still 
going to pass through the major population centers of our 
country.
    Mr. McNerney. OK, thank you, Mr. Chairman.
    Mr. Shimkus. Thank you. Let me, without objection, just--a 
TOW missile is a tube-launched optically-tracked wire-guided 
missile that was really developed about 20 years ago and I 
fired one. They are very difficult and they are guided by a 
wire.
    So if you have a moving target that is moving like on a 
train track, it would be very, very difficult. So I know there 
is new weapons in development today, but----
    Mr. Kouts. If I could also just supplement something.
    Mr. Shimkus. I am taking my colleague's time and if one of 
my colleagues would like to follow up, I would do that. But the 
chair now recognizes the gentleman from Texas Mr. Flores for 5 
minutes.
    Mr. Flores. Thank you, Mr. Chairman. Mr. Hamberger, I have 
a quick question for you. You have testified that the use of 
dedicated rail trains is essential to the safe operation--
excuse me, the safe transportation of radioactive materials. In 
fact, this conclusion was affirmed in a recent Department of 
Transportation report in 2005, also in a 3-year study by the 
National Academy of Sciences in 2006, and also in the Nuclear 
Regulatory Commission response to the National Academy of 
Science's report in 2008.
    However, while the Department of Energy stated in 2005 that 
it planned to use dedicated trains for shipment to Yucca 
Mountain, the agency has neither proposed nor adopted a 
regulation requiring dedicated trains for high-level waste and 
spent nuclear fuel. This appears to leave open the possibility 
that the DOE could ship these materials in regular mixed 
freight trains in the future.
    And so my question is this: Do you believe that the DOE 
should adopt a formal requirement and regulation calling for 
the use of dedicated trains?
    Mr. Hamberger. Absolutely, Mr. Flores. I am pleased that 
they did announce that that was their policy for Yucca, but I 
think it would be important to make it a formal policy for all 
shipments.
    Mr. Flores. OK, thank you. Mr. Horn, a question for you. 
The Nuclear Waste Technical Review Board recently recommended 
that DOE expedite its effort to finalize and publish 
documentation supporting its integration and planning tools 
associated with the transportation of spent nuclear fuel, and 
release a modeling tool to the public to ``increase their 
understand of the constraints of routing options for the 
transportation of spent nuclear fuel.''
    Will you please describe how DOE is engaging with regional 
organizations as they develop the required routing models?
    Mr. Horn. Yes, sir. For about the past 10 to 15 years, DOE, 
through the cooperative agreements with the State 
organizations, Council of State Governments being one of them, 
has been working on rail routing issues and highway routing 
issues together. And just recently, DOE has been formulating a 
new routing model called START. It stands for Stakeholder Tool 
for Assessing Radioactive Transportation; not a whole lot known 
to the general community about this tool right now.
    However, I will say that I have a meeting with DOE next 
week where I am going to be for the first time, introduced to 
this tool and will sit down and look at it. And I will be able 
to take that information back and share it with my State--our 
organizational groups as a whole.
    Mr. Flores. OK, I appreciate that. If you have any 
observations after you have looked at that tool if you would 
like to share those with us, that might be helpful.
    Mr. Horn. I would love to, sir, thank you.
    Mr. Flores. Thank you, Mr. Chairman, I yield back.
    Mr. Harper [presiding]. The gentleman yields back. I will 
now recognize myself for questions for 5 minutes. Thanks to 
each of you for being here. This is such a critically important 
topic.
    First, and this question will be directed to Mr. Quinn and 
Mr. Kouts, the Nuclear Waste Policy Act states that the 
Secretary of Energy shall utilize by contract private industry 
to the fullest extent possible in each aspect of spent nuclear 
fuel transportation. And the Secretary shall use direct Federal 
services for such transportation only upon a determination of 
the Secretary of Transportation in consultation with the 
Secretary of Energy that private industry is unable or 
unwilling to provide such transportation services at reasonable 
cost. And so this would be to Mr. Kouts, or Mr. Quinn. Are you 
aware if that determination has been made, Mr. Kouts?
    Mr. Kouts. I have no idea what sections of the Nuclear 
Waste Policy Act DOE still believes are applicable to its 
activities. They seem to pick and choose what they want to 
utilize and/or accept, if you will, but I really don't have the 
answer to that question, and again, that guidance is for NWPA 
shipments.
    And I think the Department would want other authority other 
than under the NWPA, but if there is new authority given to 
DOE, I think that would be an excellent section to put in there 
because all of the expertise, if you will, of moving these 
materials resides with private industry.
    Mr. Harper. Mr. Quinn.
    Mr. Quinn. I am not aware that any determination to that 
effect has been made. And as a member of an industry that 
actively transports nuclear materials today, we stand ready, 
willing, and able to do so when DOE comes and asks.
    Mr. Harper. So we would really like to have DOE come and 
ask. Would that be a fair statement and assessment, Mr. Kouts?
    Mr. Kouts. Yes, it is.
    Mr. Harper. OK. Mr. Quinn?
    Mr. Quinn. Yes, sir.
    Mr. Harper. OK. Given your experience, are there actions 
that private industry is unable or unwilling to undertake, Mr. 
Kouts.
    Mr. Kouts. In terms of the movement of these materials, no. 
I think there will be an issue in terms of if there is public 
concern, whether or not you want to talk to the contractor. I 
think ultimately DOE will be the responsible entity or whatever 
entity there is for implementing this.
    But ultimately, I think there needs to be some Federal 
presence. So if someone has a problem, they would go to the Fed 
as opposed to going to a contractor. But in terms of all of the 
movements----
    Mr. Harper. So you believe private industry is ready, 
willing, and able to move forward given the proper 
instructions?
    Mr. Kouts. I have high confidence they are.
    Mr. Harper. Mr. Quinn?
    Mr. Quinn. I will categorically state that industry is 
ready, willing, and able.
    Mr. Harper. And Mr. Kouts, if I could ask you a follow-up 
here. Where in the transportation planning process should DOE 
provide funding to states for training of its first responders 
and other personnel for spent fuel shipments?
    Mr. Kouts. When I was running the program, we looked at a 
time period of about 3 to 5 years before shipments when we 
would identify routes and provide funding, which would be 
supplemental to the already existing funding for existing 
training for State and local officials and Indian tribes.
    Mr. Harper. OK. Mr. Rusco, if I could ask you. As a part of 
a national transportation campaign, when is it appropriate for 
DOE to make funding available for training?
    Mr. Rusco. I am sorry, I just don't have an answer for 
that.
    Mr. Harper. OK. All right. Anybody want to reply to that, 
sir?
    Mr. Horn. Could you repeat that question real quick?
    Mr. Harper. Yes. The question was, as part of a national 
transportation campaign, when is it appropriate for DOE to make 
funding available for training?
    Mr. Horn. Again, if we go back and look at the Nuclear 
Waste Policy Act, it stipulates that 180(c) funding will be let 
4 years prior to the first shipment. So as a state and regional 
group, we are going to need more lead time than that, want to 
analyze those routes that we are going to have to train to, and 
then to have more outreach with affected communities along 
those routes.
    So we are looking probably a total 7 to 10 years, somewhere 
in that timeframe before the first shipment moves because we 
are going to have to analyze the routes, go out and determine 
which communities need to be trained, and then that will drive 
our funding mechanism to apply for funding. And then once we 
receive that funding, then we can effectively start that.
    Mr. Shimkus. Would the gentleman yield?
    Mr. Harper. I yield to Chairman Shimkus.
    Mr. Shimkus. Mr. Horn, would the state approve a route next 
to the Art Institute of Chicago?
    Mr. Horn. We would not, sir. We would highly oppose it.
    Mr. Shimkus. Thank you very much.
    Mr. Harper. And reclaiming my time. I now recognize the 
gentleman from Ohio Mr. Johnson for 5 minutes of questioning.
    Mr. Johnson. Thank you, Mr. Chairman, I appreciate it. And 
Gentlemen, thank you for joining us today.
    Mr. Hamberger and Mr. Kouts, your testimony discusses the 
development and use of the Rail Corridor Risk Management 
System, which is a sophisticated statistical routing model 
designed to help railroads analyze and identify the overall 
safest and most secure routes for transporting highly hazardous 
materials. Has the Department of Energy communicated with the 
Department of Homeland Security to discuss whether this model 
would be adequate for the shipment of spent nuclear fuel?
    Mr. Hamberger. I will defer to the former member of DOE.
    Mr. Kouts. I really am not a member of the Department and I 
can't say at this point what the Department is doing in that 
area. I think that would be an excellent suggestion. But again, 
I have no information as to whether or not the Department is 
doing that or not doing that.
    Mr. Hamberger. When we developed that, Mr. Johnson, it was 
under contract with the--we had an advisory committee of 15 
different agencies. I believe the Department of Energy was one 
of those. It is a 27-factor model. And so they are aware of it. 
It is unclear to us whether in developing what Mr. Horn was 
just referring to, the START program, whether that had any 
cross-pollenization or not.
    Mr. Johnson. OK, so, well then I think I heard Mr. Kouts 
say it would be a good idea. Would you recommend that DOE use 
the DHS model?
    Mr. Hamberger. I certainly would recommend that they use it 
if they want to add on to it, or if there are additional things 
that they want to use. But yes, it took a great deal of effort 
to come up with that. We used it for all of our hazardous 
material shipments.
    Mr. Johnson. OK, Mr. Kouts, the Department of Energy has 
five major computer-based tools to assist in the integration 
and analysis of spent nuclear fuel storage in transportation 
programs. So are you aware if any of these tools have been 
integrated with DHS' highly-developed risk-informed routing 
model?
    Mr. Kouts. I have only been briefed on one of those tools 
and I don't believe that was, but that was a stakeholder tool. 
The others I really can't comment on.
    Mr. Johnson. OK. All right. Mr. Kouts, a final question for 
you. The Department of Energy planned for a 70-year, $20 
billion transportation campaign for Yucca Mountain. If Congress 
authorizes DOE to pursue interim storage, do you have any idea 
what the cost implications for having to ship spent fuel more 
than once would be?
    Mr. Kouts. Well, it will be $20 billion plus; whatever it 
takes to move that fuel to your interim facility, if you will, 
and then moving that fuel to an ultimate destination which 
would be--it could be Yucca Mountain, it could be another 
repository. But it would be an added cost, and----
    Mr. Johnson. Would you say that cost would be significant?
    Mr. Kouts. Significant depends on the amount of fuel that 
is sent to the interim storage facility. If you are sending 10- 
to 15,000 tons, yes, it would be very significant.
    Mr. Johnson. OK. All right, Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. I want to 
thank you for coming and appreciate your response to our 
questions. The question period will be open for 10 legislative 
days. Members will be able to submit questions for the record 
in writing. We would ask that you respond to those within 10 
business days of receiving any additional questions.
    Having said that, again, I want to thank the witnesses for 
being here. With that, I am going to adjourn the hearing.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
   
                            [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
